No. 20-1006
IN THE SUPREME COURT OF THE UNITED STATES
City of Hayward, et al. v. Jessie Lee Jetmore Stoddard-Nunez
__________♦__________
CERTIFICATE OF SERVICE
__________♦__________

I hereby certify that on March 2, 2021, I electronically filed the following documents
with the Clerk of the Court for the United States Supreme Court.


Request by Amici Curiae to Lodge Non-Record Material Pursuant to Rule 32(3)
I further certify that on March 2, 2021, I caused one copy of the above-mentioned

documents to be sent to this Court (pursuant to Guidance Concerning Clerk’s Office Operations
issued on November 13, 2020) via Federal Express overnight priority service. I further certify
that, as required by Supreme Court Rule 29(3), I caused one copy of these documents to be
served via Federal Express upon:
Michael S. Lawson, City Attorney
Joseph E. Brick, Asst. City Attorney
City of Hayward
777 B Street, 4th Floor
Hayward, CA 94541
Attorneys for Petitioner

Michael L. Fox
Terrance J. Evans
C. Todd Norris
Sean Patterson
Duane Morris LLP
One Market Plaza
Spear Tower, Suite 2200
San Francisco, CA 94105
Attorneys for Petitioner

John L. Burris, Esq.
Ayana C. Curry, Esq.
Law Offices of John L. Burris
7677 Oakport Street, Suite 1120
Oakland, CA 94621
Attorneys for Respondent

Adante Pointer, Esq.
Patrick Buelna, Esq.
Pointer & Buelna, LLP
1901 Harrison Street, Suite 1140
Oakland, CA 94612
Attorneys for Respondent

Timothy Towery Coates
Greines, Martin, Stein & Richard LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, CA 90036
Attorneys for Amici Curiae, International
Municipal Lawyers Association
I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct.
Dated: March 2, 2021
/s/ Michelle Soto-Vancil
Michelle Soto-Vancil

